TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                              The International Campus
                             Compliance Unit Is Improving
                              Individual Tax Compliance



                                      September 19, 2013

                              Reference Number: 2013-30-113




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number / 202-622-6500
 E-mail Address / TIGTACommunications@tigta.treas.gov
 Website        / http://www.treasury.gov/tigta
                                                    HIGHLIGHTS


THE INTERNATIONAL CAMPUS                               Year 2012 to Fiscal Year 2013, while agreed
COMPLIANCE UNIT IS IMPROVING                           assessments increased.
INDIVIDUAL TAX COMPLIANCE                              Despite its accomplishments, the CCU does not
                                                       have specific performance measures for its
                                                       operations. The current performance measures
Highlights                                             incorporate all tax examiner groups in the
                                                       Individual International Compliance Program.
Final Report issued on                                 However, tax examiner groups outside of the
September 19, 2013                                     CCU work different issues and cases. Ideally,
                                                       an agency should develop and implement
Highlights of Reference Number: 2013-30-113            measures for all its major processes to track
to the Internal Revenue Service Commissioner           costs, quality, and timeliness.
for the Large Business and International
Division.                                              WHAT TIGTA RECOMMENDED

IMPACT ON TAXPAYERS                                    TIGTA recommended that the IRS enhance the
                                                       performance measures for the CCU to more
As globalization grows, so do concerns about           specifically reflect the work performed by CCU
the International Tax Gap—that is, taxes owed          examiners.
but not collected on time from a U.S. person or
foreign person whose cross-border transactions         The IRS agreed with this recommendation and
are subject to U.S. taxation. To address these         plans to evaluate the current performance
concerns, the IRS developed a strategic plan to        measures and CCU inventory results to
increase its international efforts, including the      determine how to enhance the performance
creation of the International Campus                   measures that are specific to work performed by
Compliance Unit (CCU) to enhance its efforts to        CCU examiners. The IRS plans to use these
expand audit coverage of tax returns with              performance measures to establish effective
international aspects and to increase                  performance goals and measure the CCU’s
compliance among international individual              success in achieving them.
taxpayers.
WHY TIGTA DID THE AUDIT
Before creating the CCU, the IRS did not have
resources dedicated to specifically address the
needs of the international individual taxpayer.
The overall objective of this review was to
determine whether the benefits envisioned by
establishing the CCU to improve international
individual tax compliance are being achieved.
WHAT TIGTA FOUND
The IRS successfully planned the CCU and
followed general Government guidelines and
steps for implementing a new business process
during the planning. The IRS is still developing
inventory selection criteria for the CCU.
However, for Fiscal Years 2011 through 2013
(through March 13, 2013), the CCU conducted
almost 18,000 audits and assessed
approximately $36 million. Further, the
no-change rate decreased from Fiscal
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 19, 2013


 MEMORANDUM FOR COMMISSIONER, LARGE BUSINESS AND INTERNATIONAL
                DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The International Campus Compliance Unit Is
                             Improving Individual Tax Compliance (Audit # 201330020)

 This report presents the results of our review to determine whether the benefits envisioned by
 establishing the International Campus Compliance Unit to improve international individual tax
 compliance are being achieved. This review is included in our Fiscal Year 2013 Annual Audit
 Plan and addresses the major management challenge of Globalization.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. If you have any questions, please contact me or Nancy Nakamura,
 Assistant Inspector General for Audit (Compliance and Enforcement Operations).
                                       The International Campus Compliance Unit
                                        Is Improving Individual Tax Compliance




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The International Campus Compliance Unit Was
          Successfully Implemented ............................................................................ Page 4
          Performance Measures Still Need to Be Established .................................... Page 8
                    Recommendation 1:........................................................ Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Glossary of Terms ................................................................ Page 16
          Appendix V – Management’s Response to the Draft Report ....................... Page 18
       The International Campus Compliance Unit
        Is Improving Individual Tax Compliance




             Abbreviations

CCU    Campus Compliance Unit
IRS    Internal Revenue Service
LB&I   Large Business and International
LQMS   Large Business and International Quality Measurement System
                                    The International Campus Compliance Unit
                                     Is Improving Individual Tax Compliance




                                               Background

As globalization increases, so do concerns about the International Tax Gap1—that is, taxes owed
but not collected on time from a U.S. person or foreign person whose cross-border transactions
are subject to U.S. taxation. While the Internal Revenue
Service (IRS) has not developed an accurate and reliable
                                                                   The International Tax Gap
estimate of the International Tax Gap, non-IRS sources               has been estimated to
estimate it to be between $40 billion and $123 billion             range between $40 billion
annually.                                                          and $123 billion annually.
To address the International Tax Gap, the IRS developed
an international tax strategic plan with two major goals:
      1) Enforce the law to ensure that all taxpayers meet their obligation to pay taxes.
      2) Improve service to make voluntary compliance less burdensome.
The IRS continues to realign and expand its international efforts under its Large Business and
International (LB&I) Division. The IRS expects that these efforts will improve international tax
compliance by allowing it to focus on high-risk international issues and cases with greater
consistency and efficiency.

Creation of the International Campus Compliance Unit
In October 2010, the LB&I Division established the International Campus Compliance Unit
(CCU) in Austin, Texas. The CCU was created to expand audit coverage of tax returns with
international aspects and to increase compliance among international individual taxpayers. The
CCU addresses and resolves less complex issues through correspondence examinations and
serves as the first point of contact for initiatives involving soft notices or contacts with taxpayers
regarding their taxes.
The primary goal of the CCU is to increase coverage of international tax return filings or
international tax issues reported or underreported on Form 1040, U.S. Individual Income Tax
Return, or Form 1040NR, U.S. Nonresident Alien Tax Return. The CCU also works closely with
the Wage and Investment Division’s Submission Processing function to expediently address
emerging abusive tax schemes involving international tax returns or tax issues and supports
international initiatives relative to individual taxpayers to facilitate early resolution of cases
without field involvement.



1
    See Appendix IV for a glossary of terms.
                                                                                                Page 1
                               The International Campus Compliance Unit
                                Is Improving Individual Tax Compliance



Figure 1 shows the CCU’s location in the International Individual Compliance Program’s
organizational structure.
                    Figure 1: LB&I Division’s International Individual
                    Compliance Program’s Organizational Structure




    Source: The IRS intranet, May 15, 2013.

The CCU is engaged in a number of diverse projects, including:
      Creating tax returns for certain taxpayers who failed to file Forms 1040PR
       (the Spanish version of Form 1040 for residents of Puerto Rico).
      Examining filed Forms 1040NR claiming certain treaty benefits.
      Processing applications for Central Withholding Agreements by nonresident
       alien athletes and entertainers.
The CCU will assist the IRS’s efforts to increase audit coverage of individual tax returns with
international aspects and to improve compliance among international individual taxpayers. The
IRS anticipates that the scope of its operations and staff will expand over time to address other
international tax compliance issues.
This review was performed at the CCU in Austin, Texas. It also includes an analysis of data
provided by the International Individual Compliance Program, Planning and Special Programs,

                                                                                            Page 2
                            The International Campus Compliance Unit
                             Is Improving Individual Tax Compliance



during the period September 2012 through June 2013. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                          Page 3
                               The International Campus Compliance Unit
                                Is Improving Individual Tax Compliance




                                   Results of Review

The International Campus Compliance Unit Was Successfully
Implemented
Before the creation of the CCU, the IRS did not have resources dedicated to specifically address
the international individual taxpayer. This created noncompliance conditions, which were
especially significant in the U.S. territories and
possessions. The IRS created the CCU to align
resources to enhance tax compliance and customer             The CCU provides the IRS with
service for individual taxpayers with less complex              the additional resources
                                                                   needed to focus on
international tax issues. Since its creation in               individual international work.
October 2010, the CCU has conducted almost
18,000 audits with approximately $36 million in
assessments.
The IRS’s vision for the CCU is that it will identify and quickly respond to less complex industry
and international tax issues resulting in an overall improvement in tax compliance and customer
service. The approach used to implement this vision included the following six-step process.
    1. Identify and prioritize initial workload types from the LB&I Division.
    2. Determine the optimal organizational structure and location.
    3. Identify the costs to establish and operate the CCU.
    4. Develop a long-term workload identification and planning strategy that continually
       assesses and prioritizes potential work types across the LB&I Division.
    5. Develop an implementation approach and timeline.
    6. Implement the unit in phases beginning in Fiscal Year 2010.

The IRS took all the appropriate steps to create the CCU
When developing and implementing new business processes, or for improving existing ones, it is
important to establish detailed steps for carrying out the various phases of the initiative. The
Government Accountability Office’s Business Process Reengineering Assessment Guide2
contains nine major assessment issues considered by experts to be stepping stones to successful

2
  Government Accountability Office (formerly known as the General Accounting Office), GAO/AIMD-10.1.15
(version 3), Business Process Reengineering Assessment Guide (April 1997).
                                                                                                    Page 4
                              The International Campus Compliance Unit
                               Is Improving Individual Tax Compliance



business process reengineering. The issues in the guide provide a general framework for
assessing a reengineering project from initial strategic planning and goal setting to
post-implementation assessments. Figure 2 shows the nine major assessment issues and how
IRS management addressed these issues in their creation of the CCU.
                         Figure 2: Nine Major Assessments Issues
                     for Successful Business Process Reengineering

 Assessment                   IRS’s Actions

 Did the IRS reassess its     The IRS had an international strategy in place to improve voluntary
 mission and strategic        compliance with the international tax provisions and to reduce the
 goals?                       Tax Gap attributable to international transactions. Additionally, the
                              LB&I Division identified several international tax issues that were not
                              being addressed under current IRS processes. In its proposal for the
                              CCU, the LB&I Division identified current resource issues and new work
                              that could be performed with the creation of a compliance function in a
                              submission processing site.

 Did the IRS identify         Some international issues could not be supported under current IRS
 performance problems and     processes. In its planning, the IRS anticipated improvements and
 set improvement goals?       identified risks in establishing the CCU. For example, the LB&I Division
                              had never established a campus compliance operation, and the IRS had
                              concerns over future funding, sustainability of work, and employee skills.
                              Each risk was addressed and mitigating actions were planned.
                              Improvement goals could not be set at this time because many of the
                              work types that had been identified were new or emerging compliance
                              risks and were not currently being worked.

 Should the IRS have          The IRS appropriately determined that there was a need for the CCU due
 engaged in reengineering?    to a lack of coverage of individual international issues.

 Was the reengineering        IRS managers experienced in the establishment of operations managed
 project appropriately        the implementation and established specific goals throughout the
 managed?                     implementation process.

 Did the project team         The implementation process was carefully planned, but no alternatives
 analyze the target process   were developed.
 and develop feasible
 alternatives?

 Did the project team         There were many anticipated benefits in the business case. Some of
 complete a sound business    these benefits include: 1) improving international individual compliance in
 case for implementing the    the LB&I Division through additional correspondence examinations and
 new process?                 soft notices addressing less complex issues; 2) increasing the efficiency
                              and productivity of all correspondence examinations leading to increased
                              coverage; and 3) increasing customer satisfaction by more quickly and
                              accurately responding to taxpayer questions and issues.

                                                                                                   Page 5
                                 The International Campus Compliance Unit
                                  Is Improving Individual Tax Compliance




 Assessment                      IRS’s Actions

 Did the IRS follow a            There was a detailed and comprehensive implementation plan.
 comprehensive
 implementation plan?

 Did IRS executives address      Management implemented the new CCU and successfully made the
 change management               transition to working new international tax issues.
 issues?

 Is the new process              The IRS is currently achieving the goals established for the CCU and is
 achieving the desired           expanding audit coverage of tax returns with international aspects and
 results?                        increasing compliance among international individual taxpayers.

Source: The Treasury Inspector General for Tax Administration’s evaluation of the nine major assessments based
on the Government Accountability Office’s Business Process Reengineering Assessment Guide.

The CCU was established and staffed
In deciding where to locate the CCU, the IRS used initial criteria of whether there was:
    1) A Correspondence Examination function currently in the location.
    2) Sufficient physical space.
    3) Sufficient staff available to hire.
    4) A presence of existing international expertise.
The Austin Submission Processing Site was chosen because it processes all international
individual tax returns, so the international expertise needed was already in place.
To estimate the number of employees required to staff the CCU, the IRS needed to determine the
unit’s workload, i.e., the volume of international tax returns to be audited and the time needed to
audit them. However, many of the work types that had been identified were new or emerging
compliance risks and were not currently being worked. Therefore, volumes and processing times
were unknown.
In addition, the volume of some work types is directly tied to external variables and a submission
processing site’s ability to process fluctuating capacity is dictated by those variables rather than
available resources. Based on all of these factors, the IRS determined that the initial staffing for
the CCU was to be 30 tax examiners. As of Fiscal Year 2012, the number of tax examiners has
slightly increased to 31.




                                                                                                         Page 6
                                The International Campus Compliance Unit
                                 Is Improving Individual Tax Compliance



The CCU has audited almost 18,000 tax returns since its creation
In Fiscal Year 2011, the CCU primarily worked substitutes for returns related to Form 1040PR.
Under the Substitute for Return Program, the IRS prepares tax returns for taxpayers who have
not filed their required tax returns based on income and other information provided to the IRS by
third parties, such as employers and banks. These tax returns are generally not complex and only
take about an hour to create and assess. The CCU worked three years of tax returns for each
taxpayer and these returns accounted for approximately 75 percent of the CCU’s inventory
during that fiscal year.
In Fiscal Year 2012, the CCU started working more complex tax returns related to Information
Returns Processing. Information Returns Processing involves comparing what the taxpayers
reported on their tax returns to the information the IRS was provided from third parties. These
tax returns took an average of 3.5 hours to work; therefore, CCU examiners could not work as
many tax returns as they did in Fiscal Year 2011. However, working these types of tax returns
resulted in higher tax dollar assessments per tax return and thus overall higher dollars assessed
even though not as many tax returns were worked as in Fiscal Year 2011.
As shown in Figure 3, for Fiscal Years 2011 through 2013 (through March 13, 2013) the CCU
conducted almost 18,000 audits and assessed approximately $36 million. Further, the no-change
rate decreased from Fiscal Year 2012 to 2013, while agreed assessments increased.
                            Figure 3: The CCU’s Accomplishments

                                                         Fiscal          Fiscal           Fiscal
                                                          Year            Year             Year
                                                         2011            2012             2013*    Totals

 Total Tax Returns Closed                                 9,614          5,177            3,003    17,794

 Total Dollars Assessed (in millions)                     $10.4          $15.7             $9.8     $35.9

 Total Tax Returns With Assessments                       9,164          4,036            2,638    15,838

 Percentage of Tax Returns With Assessments              95.3%          78.0%             87.8%    89.0%

 Total Agreed Assessments                                 3,857          2,294            1,619     7,770

 Percentage of Agreed Assessments                        40.1%          44.3%             53.9%    43.7%

 Amount of Agreed Assessments (in millions)                $6.3           $7.6             $4.6     $18.5

 Total Tax Returns Closed With No Change                    450          1,141              365     1,956

 Percentage of No-Change Closures                         4.7%          22.0%             12.2%    11.0%
Source: IRS provided Examination Returns Control System reports. *As of March 30, 2013.



                                                                                                    Page 7
                                  The International Campus Compliance Unit
                                   Is Improving Individual Tax Compliance



The IRS is developing inventory selection criteria for the CCU
Planning and Special Projects3 function management stated that workload identification for the
CCU is a significant challenge. Unlike other areas in the IRS where computer programs identify
the inventory, identifying the workload for the CCU involves manually analyzing data. There is
a large amount of IRS data to review as well as data from foreign treaty partners and other
Government agencies such as the Department of State.
Additionally, the Planning and Special Projects function must ensure that the tax returns selected
for audit are appropriate for correspondence audits and match the skills of the staff. In contrast
to the more detailed and lengthy face-to-face audits in the field, the correspondence audit process
is less intrusive, more automated, and includes less complex tax issues.
When the CCU receives inventory from the Planning and Special Projects function, the work is
assigned to one of the CCU groups. Each group’s
team leader reviews the tax returns and assigns them
to the individual tax examiners based on their          The number of cases selected
training and experience. Feedback on inventory          for the CCU that could not be
selection is provided to the Planning and Special       worked is less than 1 percent
Projects function to help ensure that adjustments to    of the 5,177 examinations that
the inventory selection process can be made if         were  closed in Fiscal Year 2012.
needed.
Currently, the Planning and Special Projects function is working closely with the CCU to
identify additional data sources to ensure that the workload continues to be productive. This
process is ongoing and changing annually as international tax issues change. For example, better
case selection has led to a decrease in no-change cases. In addition, only about 15 cases a
quarter are referred to other IRS functions because CCU employees cannot work them due to
their complexity. This accounts for less than 1 percent of the 5,177 examinations closed in
Fiscal Year 2012.

Performance Measures Still Need to Be Established
Although the IRS established a multilayered quality review process to ensure that the CCU
inventory is correctly and consistently worked, it has not established the performance measures
needed to measure the CCU’s success in achieving its goals. Now that the CCU has been
operating for a number of years, sufficient data would be available at the end of three years to
establish meaningful performance measures to determine if the CCU is achieving its goals.



3
 The Planning and Special Projects function within the International Individual Compliance Program is responsible
for selecting the majority of the case inventory for the International Individual Compliance Program, including the
CCU.
                                                                                                            Page 8
                                   The International Campus Compliance Unit
                                    Is Improving Individual Tax Compliance



The LB&I Quality Measurement System (LQMS) provides an independent review
of CCU casework
The LQMS provides an independent quality review of a statistically valid sample of CCU cases.
The LQMS reviews each case for 17 different issues including audit planning, income
determination, audit technique, timeliness, and professionalism. The results of the first LQMS
reviews for the CCU showed overall quality scores in the 90 percent range.
In addition, CCU management, which includes the Territory manager and the unit manager,
perform operational reviews of the cases being worked in the CCU’s inventory. The CCU
management team has been performing operational reviews on a consistent basis and the
Territory manager performs monthly reviews of cases more than 60 days old that are still in the
inventory. The feedback received from the LQMS and the CCU management reviews are
extensive and are used to determine planning and training needs. The current results of all
reviews have been positive.

The CCU’s performance improved, even though there are no specific
performance measures for the program
The CCU’s performance results improved from Fiscal Year 2011 to Fiscal Year 2012. Even
though the CCU reviewed 4,437 fewer tax returns in Fiscal Year 2012 than it did in Fiscal
Year 2011, it assessed $5.4 million more in taxes, for an average of approximately $2,000 more
per tax return.
Figure 4 shows the categories of tax returns worked by the CCU and the dollars assessed. 4 The
decision to change the category of the tax returns selected had a big impact on the dollars
assessed between Fiscal Years 2011 and 2012.
                Figure 4: Tax Return Categories Worked by the International
                   Campus Compliance Unit in Fiscal Years 2011 and 2012

                      Fiscal Year 2011                                       Fiscal Year 2012

    Category                 Returns     Assessments       Category                    Returns     Assessments

    Form 1040-PR                                           Information Returns
    (Substitute for           7,182       $5.1 million     Processing                   3,101        $9.5 million
    Return)
    Information Returns                                    Erroneous Refund
                              2,220       $4.7 million                                   571          $996,918
    Processing                                             Child Credits




4
 The assessments over $1 million are rounded, so the average dollar assessments for these categories will be slightly
different due to rounding.
                                                                                                             Page 9
                                     The International Campus Compliance Unit
                                      Is Improving Individual Tax Compliance




                     Fiscal Year 2011                                        Fiscal Year 2012

    Category                Returns     Assessments       Category                    Returns     Assessments

    Exchange of                                           Exchange of
                                88         $173,797                                      413        $2.0 million
    Information                                           Information
    Erroneous Refund                                      Form 1040-NR
                                62          $53,671                                      382        $1.9 million
    Credit Project                                        (Prerefund)
    Form 1040-NR                                          Form 1040-PR
                                30         $245,929                                      264         $208,593
    (Prerefund)                                           (Substitute for Return)
    Excessive Schedule A,                                 Form 1040-PR
    Itemized Deductions,        16          $29,993       Self-Employment Tax            169         $252,543
    Mortgage Interest
    Tax Treaty                                            Residents of Puerto
    Exclusions                                            Rico Form 1040 With
                                15          $80,846                                      104         $210,010
                                                          Earned Income Tax
                                                          Credit
    Other                                                 Gambler/Treaty
                                1           $1,184                                       87          $312,004
                                                          Issues
                                                          Tax Treaty Exclusions          68          $403,112
                                                          Other                          18           $21,022
                                                                                                                   5
            TOTALS            9,614      $10.4 million                                  5,177     $15.8 million
    Source: Closed Case Monitoring reports provided by the LB&I Division.

In Fiscal Year 2011, the Substitute for Return category yielded over $700 per tax return, whereas
in Fiscal Year 2012 the Information Return Processing category yielded over $3,050 per tax
return. This switch resulted in fewer assessments in Fiscal Year 2012 with a bigger impact on
tax compliance. Before the CCU was created, these types of returns were not worked in the
volumes they are now.
Despite its accomplishments, the CCU does not have specific performance measures for its
operations. The current performance measures incorporate all tax examiner groups in the
International Individual Compliance Program. However, tax examiner groups outside of the
CCU work different issues and cases. Ideally an agency should have measures for all of its
major processes to track cost, quality, and timeliness.




5
 The difference between the assessments in Figure 3 ($15.7 million) and Figure 4 ($15.8 million) is due to
rounding.
                                                                                                             Page 10
                            The International Campus Compliance Unit
                             Is Improving Individual Tax Compliance



The inventory reports in the Examination Returns Control System can be queried by the group
number to provide data on the inventory results of the CCU. Based on our review of this data,
the CCU is accomplishing what it was created to do. However, without specific performance
measures, the IRS cannot establish effective performance goals or measure the CCU’s success in
achieving them. Performance measures specific for the CCU can help the program achieve its
goals and measure its success from year to year.

Recommendation
Recommendation 1: The Commissioner, LB&I Division, should enhance the performance
measures for the CCU to more specifically reflect the work performed by CCU examiners.
       Management’s Response: The IRS agreed with this recommendation. The IRS will
       evaluate the current performance measures and CCU inventory results to determine how
       to enhance the performance measures specific to work performed by CCU examiners.
       These performance measures will then be used to establish effective performance goals
       and measure the CCU’s success in achieving them.




                                                                                       Page 11
                                    The International Campus Compliance Unit
                                     Is Improving Individual Tax Compliance



                                                                                     Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the benefits envisioned by
establishing the International CCU to improve international individual tax compliance are being
achieved. To accomplish this objective, we:
I.         Determined whether the IRS properly planned for and implemented the CCU by
           determining the LB&I Division’s roles, responsibilities, and resource commitments to the
           CCU.
           A. Obtained detailed implementation documentation from the LB&I Division that
              established the new CCU. We reviewed documentation to determine how the
              organizational structure and staffing levels were decided.
           B. Reviewed the LB&I Division’s strategic/annual plans, directives, program letters, and
              policies to determine its roles and responsibilities for identifying and addressing
              resource commitments to the CCU.
           C. Interviewed the Director, International Individual Compliance, to identify the mission
              and goals of the CCU and determine the organization structure and staffing
              requirements.
           D. Interviewed both LB&I Division executive management and the CCU management
              team to determine whether they believe the program is properly staffed.
           E. Performed a walkthrough of the CCU in Austin, Texas, and identified the controls
              and procedures in place to process or select tax returns.
II.        Determined the controls and procedures the IRS has in place to ensure quality selection
           and classification of international tax returns to be worked by the CCU.
           A. Researched the Internal Revenue Manual1 and examination guidance documents, such
              as the annual examination plan, National Office Examination Classification
              Guidelines, and area classification instructions to identify whether international tax
              returns are included in these guidelines.
           B. Discussed with both LB&I Division Executive Management and the CCU
              management team the controls and procedures in place to ensure that classification is
              consistent.


1
    See Appendix IV for a glossary of terms.
                                                                                             Page 12
                             The International Campus Compliance Unit
                              Is Improving Individual Tax Compliance



       C. Determined the quality of the classification process by reviewing Examination
          Returns Control System reports and analyzing the percentages of no-change and
          agreed assessments.
III.   Determined whether the CCU is meeting its mission and goals by evaluating the
       program’s quality review process and performance results from its creation to the end of
       Fiscal Year 2012.
       A. Reviewed the LQMS procedures to evaluate the effectiveness of the quality review
          process.
       B. Interviewed LQMS personnel and reviewed available reports to identify the number
          of cases reviewed and the corresponding review results. In addition, we evaluated the
          feedback provided and how the quality review process is being used to enhance the
          CCU.
       C. Identified available reports that captured the performance measure results of the
          CCU’s case processing. We reviewed and evaluated the results of these reports from
          the creation of the CCU to the end of Fiscal Year 2012 to determine whether the
          CCU’s performance improved or declined.
       D. Discussed the results of the reports with both LB&I Division Executive Management
          and the CCU management team to determine whether they believed the Unit was
          meeting its goals and fulfilling its mission.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the LB&I Division’s plan for creating the
CCU, the CCU’s mission and policies, the selection criteria for the CCU inventory, the quality
review process, and the performance measures. We evaluated these controls by interviewing
management, reviewing the planning documentation for the CCU, reviewing quality review
results, and analyzing inventory reports to determine if the CCU was productive and fulfilling its
mission.




                                                                                           Page 13
                           The International Campus Compliance Unit
                            Is Improving Individual Tax Compliance



                                                                            Appendix II

                Major Contributors to This Report

Augusta R. Cook, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Bryce Kisler, Director
Tina Parmer, Audit Manager
John Chiappino, Lead Auditor
Marge Filippelli, Senior Auditor
Frank O’Connor, Auditor




                                                                                    Page 14
                           The International Campus Compliance Unit
                            Is Improving Individual Tax Compliance



                                                                             Appendix III

                          Report Distribution List

Acting Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Office of the Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner (International), Large Business and International Division SE:LB:IN
Director, International Individual Compliance, Large Business and International Division
SE:LB:IN
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Large Business and International Division SE:LB




                                                                                     Page 15
                              The International Campus Compliance Unit
                               Is Improving Individual Tax Compliance



                                                                                      Appendix IV

                                 Glossary of Terms

              Term                                              Definition

Central Withholding Agreement      A contract between a nonresident alien athlete or entertainer, a
                                   designated withholding agent, and an authorized representative of
                                   the IRS for a specific tour or series of events, which provides for
                                   the correct amount of withholding based upon net income at
                                   graduated rates.
Examination Returns Control        The Examination Returns Control System provides detailed
System                             management information on returns under examination.
                                   Management and clerical personnel in the Small Business/
                                   Self-Employed and LB&I Divisions use the Examination Returns
                                   Control System to request tax returns and update examination
                                   status. The Examination Returns Control System provides the
                                   capability to assign returns to individual examiners and record their
                                   time charges. The Examination Returns Control System also
                                   tracks technical time spent on the cases and monitors the cases
                                   for proximity to statute expiration.
Exchange of Information            The Exchange of Information Program administers the exchange
Program                            of information provisions of U.S. tax treaties and tax information
                                   exchange agreements. It helps IRS field personnel obtain
                                   foreign-based records and other information from foreign
                                   countries.
Fiscal Year                        A 12-consecutive-month period ending on the last day of any
                                   month. The Federal Government’s fiscal year begins on October 1
                                   and ends on September 30.
Foreign Person                     A foreign person includes a nonresident alien individual, foreign
                                   corporation, foreign partnership, foreign trust, foreign estate, and
                                   any other person who is not a U.S. person.
Information Returns Processing     Information Returns Processing identifies taxpayers who have
                                   underreported their income by matching information documents
                                   received by third parties to the income reported on the individual’s
                                   tax return.
Internal Revenue Manual            Contains the policies, procedures, instructions, guidelines, and
                                   delegations of authority that direct the operation and administration
                                   of the IRS. Topics include tax administration, personnel and office
                                   management, and others.



                                                                                                Page 16
                             The International Campus Compliance Unit
                              Is Improving Individual Tax Compliance




              Term                                               Definition

International Individual Taxpayer   A U.S. citizen or resident alien working, living, or doing business
                                    abroad or receiving investment income from abroad or a foreign
                                    individual working, living, or doing business in the United States or
                                    receiving investment income from the United States.
International Practice Networks     A strategic part of the International Individual Compliance Program
                                    involves the creation of International Practice Networks aligned
                                    with a framework used to organize all international issues. The
                                    International Practice Networks allow all international personnel,
                                    counsel, and other interested parties to come together to share
                                    and collaborate on strategic international issues.
No-Change Rate                      The no-change rate is the percentage of cases where no tax
                                    assessment was made.
Nonresident Alien                   An individual who is not a U.S. citizen or U.S. national who has not
                                    passed the green card test or the substantial presence test.
Nonresident Compliance              The Nonresident Compliance Initiatives office is responsible for
Initiatives                         workload identification, case building and delivery for examiners in
                                    the International Individual Compliance Program, providing
                                    automation support to field groups, and compliance program
                                    monitoring and reporting.
Offshore Compliance Initiatives     The Offshore Compliance Initiatives office promotes voluntary
                                    compliance with U.S. tax and foreign information reporting laws
                                    through strategic enforcement actions directed at identifying U.S.
                                    taxpayers involved in abusive offshore tax schemes and the
                                    banks, other financial institutions, and third parties that provide,
                                    facilitate, or enable their offshore financial arrangements.
Submission Processing Sites         The data processing arm of the IRS. The sites process paper and
                                    electronic submissions, correct errors, and forward data to the
                                    Computing Centers for analysis and posting to taxpayer accounts.
Substitute for Return               A tax return prepared by the IRS under the authority of Internal
                                    Revenue Code Section 6020(b) using information from third-party
                                    sources because the taxpayer did not file a tax return.
Tax Gap                             The estimated difference between the amount of tax that
                                    taxpayers should pay and the amount that is paid voluntarily and
                                    on time.
Tax Year                            The 12-month period for which tax is calculated. For most
                                    individual taxpayers, the tax year is synonymous with the calendar
                                    year.




                                                                                                 Page 17
          The International Campus Compliance Unit
           Is Improving Individual Tax Compliance



                                                Appendix V

Management’s Response to the Draft Report




                                                     Page 18
The International Campus Compliance Unit
 Is Improving Individual Tax Compliance




                                           Page 19
The International Campus Compliance Unit
 Is Improving Individual Tax Compliance




                                           Page 20
